INDEX TO APPENDICES

Ninth Circuit Court
Appendix A,
Page
Copy of cover sheet and supplement excerpt records by Mr. Baker at AGO... A to 1A **
Docket#44-l, by honorable Ronald B. Leighton, why he only recommended Title VII action
against DSHS only when I filed my Title VII action against all defendants? By his
Own discretion and biased decision, he has discriminated against me.
Copy of cover sheet and supplement excerpt records filed by Mr. Baker
Docket#44-l, by honorable Chief Judge Ricardo S. Martinez’s order.

,2A to 3A**
10A to 11 A**
.. 4A to 6A**

Docket#44-l, by honorable judge Ronald B. Leighton’s order, refused to recuse
Himself from my case, and dismissed all defendants from my lawsuit

,7A to 26A**

Docket#22, March 4, 2020 by honorable judge Canby and Gould.

.27A to 28A**

Docket#47, June 11,2020 by honorable judge Canby and Gould.

.29A to 30A**

Docket#55, August 7, 2020 by judges Schroeder, Hawkins and Lee............ 31A to 34A**
Docket#61, November 3, 2020 by honorable Schroeder, Hawkins and Lee
dismissed all defendants or respondents from my already granted the amended
cross-appeal in Dkt#22 and reconsideration.

35 A**

Dkt#63, Notice filed by Ms. Rebecca Lopez on December 12,2020.

36A**

Dylan Oxford refused to approve my annual leave balance over 240 hours

,37A**

Letter or notice dated June 1,2020 to me and I replied and filed my motions and court
Granted Dkt#49, 51,52,53,54,55, and deputy clerk rescanned in Dkt#56 and 57...... 38A**
Pamela Anderson, filed court document on June 5,2020, instead of her represented attorney
Mr. Brian J. Baker. Is this legal? Why did the Ninth Circuit court accept this?......... 39A **
Letter or notice dated July 14, 2020 by Stephanie Lee

40A**

Dara Kaleel, Deputy Clerk filed ORDER, March 2, 2020
Amended Cross-Appeal, 58 pages, filed on December 11,2019

. .41A**
42A**

Idolina Reta’s email correspondence to me that the face to face interview in mid-January 2019
After Mr. Arturo Haro provided record to WSHRC and after I completed and returned an
Interrogative Questions for her; however, they changed their mind and interview did not
Occur with WSHRC, staff member Sharon Ortiz, Jeremy Page, Idolina Reta or Becky
Moore who might be related to Timothy Francis-Moore, who was fired by DSHS and me. 43 A

My letter dated January 14,2019 to Jeremy Page and Sharon Ortiz at WSHRC that I requested
For them to keep my case open and I still wanted a face-to-face meeting with them and I gave
this letter to Ms. Deborah Gonzales(DG)

44A-45A **

Jeremy Page’s email to Mr. Arturo Haro, DSHS Investigator for my 2018 WSHRC/EEOC
Investigation regarding my 31 completed job applications

,46A**

Tamarra Henshaw, HCA Executive Office Assistant for Sue Birch, HCA Director responded
To me via the email that Ms. Sue Birch declined to meet with me regarding my personnel issue
and they sent me an email on May 25,2018

.47A **

Brenda Aguirre-Rogers, DSHS Executive Assistant to Cheryl Strange, DSHS Secretary
responded to me via the email that they were not going to meet with me and the email sent to
me on May 24,2018

48A**

Robert Bouffard, HCA Human Resources Director declined and refused to help me with my
Personnel issue/EEOC matters and he sent me an email on May 4,2017

.49A **

My email to Perry Gordon, AFSCME UNION representative in Olympia, WA regarding my

- Meeting with him on May 2, -2017- and told him that Jason Watson was not honest with me and
it turned out that he assisted and represented my DSHS x-employee Timothy Francis-Moore..
50A**
My email communication July 17, 2019 to Agata Moges, who accepted a completed Interview
Questionnaire Form from me regarding my EEOC charge for 2018 with WSHRC.......... 51 A**
Jody Costello, HCA Risk Management and supervisor of Robert Bouffard declined to meet with
me and refused to help me with my HCA personnel issue and EEOC matter

52A**

My email response to the letter or notice dated July 8,2015 and this was a second notice and the
first letter or notice dated June 1, 2015from George Taylor, HCA Privacy Officer regarding the
client’s PHI; this was their set up to make sure that I did have a bad record for my employment.
If you see my meeting with Ms. Sharon Pecheos, HCA HRD consultant; she and I reviewed my
personnel record together and she had assured me that no negative activity in my personnel file.
This was their bullying me and retaliating me again after I had submitted my letter of resignation
to Ms. Paula Williamson, HCA HRD FMLA Coordinator in May 2015
June 1,2015 letter or notice from George Taylor at HCA HRD

53A **
54A **

July 8,2015 letter or notice from George Taylor at HCA HRD again and this is the bully and
Retaliation coming from them.

55Ato 56A **

Copy of first page of 66 confidential documents submitted to EEOC on July 29,2015 and EEOC
Lost these documents, misplaced or destroyed by someone at EEOC office in Seattle and I had
to provide the same copy again to Ms. Toni Haley on September 16,2015.1 thought that EEOC
is supposed to be a safe place for me and my personnel matter and confidential documents.65A
**

June 8, 2015, Ms. Leigh J. Swanson, Chief Torts at AGO confirmed that she had received my
Tort’s claim.

.66A **

July 13,2015, Ms. Leigh J. Swanson confirmed that my supplemental evidences or information
had been received from June 9, 2015 and June 29, 2015 and that she had forwarded these
documents or information to an assigned AGO’s Torts Claim Investigator.

,67A **

August 4, 2015, Ms. Leigh J. Swanson responded to me that AGO had completed my Tort’s
claim investigation and determined “it is without merit,” and I did not have computer skills for
my MAPS 3 position. This was a lie. As a former social services supervisor, I was required to
work on excel and Microsoft word at DSHS to run data and reports for the upper-management
team member. If my employer’s word were true and they did acknowledge that I was lack of
computer skills, why did they refuse to train me in 2013 and 2014 and why did they had to wait
until 2015.1 know why because they wanted to see me fail miserably at HCA and that is a reason
why they did not approve the Excel, SQL, BATS courses for me and they even cancelled my
medical coding training in February 2014 in the last minute after Ms. Thuy Hua-Ly had
registered and approved for me to attend out of state from February 10, 2014 to February 14,
2014 (see email from Vanessa Balch, Executive Assistant. Also, if my HCA employer’s word
were true that my FMLA approved and why did Ms. Jean Bui my immediate supervisor refused
for me to take sometimes off from work and she had complaint about me and my poor attendance
and I had given way too much work assignments for Mr. Gary Blair to do and I needed to be at
work(see my email communication with Mr. Gary Blair dated March 24,2015 and his email
Strings to me from page 92A to 95A who was one of my many witnesses at HCA and he saw
the bully, retaliation and discrimination occurred to me at HCA. By the way, none of my witness
statement had been in either HCA, AGO and EEOC investigations combined even though I had

-informed the EEQC intake investigator Ms;-Haley who were my witnesses. l am not sme if the —"
rest of witness had been called in for my HCA, AGO and EEOC charges’ investigation. If they
did, obviously their witness statements were not reported in the HCA, AGO, and EEOC
combined investigations,

68A **

Notice or letter dated February 28,2019 by Ms. La Dona Jensen regarding the release of records
to me, 671 pages

69A to 70A **

Eileen A. Sherlock at DSHS responded to me on August 21,2014 and I informed her that I was
fearful of my DSHS x-employee and he should not know where I worked and in what unit and
that any public disclosure record should have been handled DSHS upper-management team
members because I was no longer with DSHS agency and moved on to another state agency
with HCA and she should check with DSHS. Prior to my employment with HCA, DSHS
employer and I had our agreement regarding this personnel matter in June 2013 and there was
an incident report that I created for Ms. Gloria Marshall-Perez and Mr. Dan Owens and I gave
it to Ms. Jeannie WilsonBeard, DSHS Region 3 Confidential Secretary,

71A **

I reported to Dylan Oxford my other supervisor on March 2,2015 that I saw my x-employee in
the HCA building and I was fearful of him and I was tearful in front of Oxford. And, Oxford
told me that he did not want anything to do with DSHS personnel issue or DSHS investigation
and he wanted me to focus doing my work and fixed the OPPS fee schedules for him and we
needed to correct all mistakes, and he ignored all of my angers, frustration and madness when
we had our meeting at 2:02PM on this day, and I told him that Eileen A. Sherlock and her
supervisor had been notified about this serious personnel matters. However, they all ignored my
issues that I had raised with them,

72A **

Dr. Valerie Sutherland authorized for me to take one week off work dated February 12,2014
due to my depression and anxiety.

73A **

My email to Dylan Oxford asked for his permission to go home early because I was not feeling
well and had depression and anxiety on October 20,2014

,74A **

My email to Dylan Oxford asked for his permission to go home early because I was not feeling
well and had depression and anxiety on February 13, 2015

75A **

Mr. Myron Toyama, DSHS HRD Investigative Unit Supervisor responded to Cherie L. Willhide
at DSHS Public Disclosure Unit that he did not write up his report after he met with me on
February 20, 2014. DSHS called me in for my x-DSHS employee’s investigation and EEOC
investigation and this was the same month that my supervisor had cancelled my medical coding
in the last minute because they were so angry with me,

,76A **

Ms. Cherie L. Willhide at DSHS Public Records Dept, responded to me that she needed Mr.
Timothy Francis-Moore’s permission in order to release the 48 pages of DSHS public record
request#201605-PRR-822. In this DSHS report, it showed many names of DSHS and HCA
upper-management participated or involved with my x-employee personnel issues .. .77A **
Myron Toyama, DSHS Investigative Unit Supervisor and I met and cooperated and provided
answers to his questions and I was there with him about 41 minutes on Feb. 20,2014 ..78A **
Eileen A. Sherlock, DSHS public record unit, forwarded the public record disclosure request
dated August 1, 2014 from Mr. Moore for me to respond to him. Again, DSHS employer was
supposed to handle this personnel issue. We had our agreement after we fired our x-employee
that DSHS was going to handle x-employee’s personnel issue since I was no longer with DSHS.
This agreement was in my email outlook at DSHS in June 2013

79A **

i have been seeing Dr. Trenton Williams at Rainier Associates regarding my depression "and
anxiety and personnel issue with x-employee and investigation and no one wanted to take my
personnel matter or issue seriously at HCA and DSHS, June 24, 2014. This email also showed
Many staff members at the upper-management level involved or participated in my xemployee’s DSHS personnel and his EEOC charge with WSHRC agency

80A **

Ms. Sharon Pecheos met with me and reviewed my personnel file and referred me to the
Employee’s Advisory Program (EAP) regarding my depression, anxiety and I reported to her
that I was fearful of my x-employee on this dated August 18 and 21, 2014... 81A to 83 A **
March 26, 2015, Ms. Nicole Rivera, HCA Training Coordinator, met with me and registered
Excel, SQL, and BATS for me to attend and she said your supervisor is supposed to send you
to these courses training long time ago and these courses are existed and available to staff. I told
her that Dylan Oxford kept telling me that there was no budget and no courses available for my
MAPS 3 position, and that was a lie. Then, she informed me to file the EEOC complaint. I also
her told about that I received the bully by Andrew Steers and Dylan Oxford did not do anything
about it because Steers is his friend and under his supervision in the same unit. I was tearful in
front of her. I could not believe that Dylan Oxford had lied to me. She registered these courses
for me and she told me to give it to my new supervisor to approve so that I could attend and
learned the skills that I needed for my MAPS3 position. I told her that I had my meeting with
Jean Bui my new immediate supervisor at 3:00 PM and had her approved those courses for me.
And, I saw Ms. Bui had her meeting with Mr. Scot Palafox at 2:00PM in her office on this same
day. Not sure what their meeting was all about. However, my meeting did not go well at all with
Jean Bui at 3:00PM. Bottom line is this, my meeting with her was all about blaming on me for
all the mistakes that we had in our OPPS fee schedules and that I was responsible for all of the

mistakes, she complaint about my poor attendance and I needed to be at work and improve my
attendance and that I shouldn’t give my work assignments for Mr. Gary Blair to do. I explained
to her that I had my human right to take sometimes off for my FMLA approval and she did not
want to hear that; she went further this program is my responsibility and I should be on my own
and why I did not know the job after 1 year at HCA. I tried to explain to her that Dylan did not
train me and of course she did not want to hear that. She even compared me with other unit
member Wendy Penquite who had been hired after me a year later in October or November of
2014.1 told her that Wendy had her chance to be a successful employee and she just attended
the medical coding training and I did not have my chance as other employees at HCA .. 86A**
My email to Thuy Hua-Ly, HCA Financial Chief Officer for Hospital Finance Section, which
is my unit under her supervision, and I did not hear from her or Vanessa Balch. The last thing I
knew was they had intentionally cancelled my medical coding on purpose because they were
angry with me and I did not find this out until in February 2014.

88A **

This page shows Ms. Nicole Rivera at HCA registered these courses for me when I met with her
on March 26, 2015 at 11:00 AM.

89A**

This paged shows Ms. Jean Bui refused to approve this course and the rest of them for me at
3:00 PM during our meeting on March 26,2015 in her office.

90A**

Paula Williamson at HCA FMLA sent me her letter or notice dated June 15,2015 that HCA
Had accepted my voluntary separation effective June 11,2015. My letter to her was dated May
26, 2015. On June 1, 2015 and July 8, 2015, HCA employer and some staff alledgely accused
me that I had saved the client’s PHI in my personal home computer, and I did not... .91A**
Mr. Gary Blair’s witness statements in support of my claim

. a—

92Ato 95 A **

{

My awful and depressive meeting with' Jean Bui on March 26, 2015.1 told her about these two
staff members had set me up and wanted me to get in trouble with her and she did not want to
hear about my complaint. This meeting had been cancelled and she did not hear it. I told her
about all of problems for the April and July 2014 OPPS fee schedules and that I could not fix
them myself and I needed Gary Blair to help me with those fee schedules and she said no because
this OPPS program is my program and I was responsible for all mistakes and not Mr. Blair.
However, she had no problem for La Shauna Penn assisted Rachel Dreon with her program and
Lillian Ebora assisted Mary O’Hare with her program. I believe Jean Bui wanted to see me fail
as her employee. I do not know what her meeting with Mr. Scott Palafox all about at 2:00 PM
on March 26,2015 prior to my meeting with me at 3:00 PM. All I knew, they did not look happy
from seeing thru her office glass window

.96A **

Jean Bui’s email dated March 25,2015, she listed all of her demands for me to do my job duties
without the necessary and required job skills training for my MAPS 3 position at HCA and she
refused for me to ask anyone in the unit for help with my job duties. My HCA Training Record
and my PDP that Dylan Oxford and I both signed in 2013 and 2014 do not lie

97A **

My meeting with Jean Bui on March 18, 2015 was another horrible meeting and I received the
bully and retaliation by her. On this day, she not only complaint about my lack of knowledge
with my duties for my MAPS 3 position, but she also asked me about what was going on with
the ASC program. I told her that that program was not my responsibility and that was Mr. Blair’s
responsibility in addition for him to help and manage the OPPS fee schedules for my program.
Then, she went on and asked why there were so many mistakes with the OPPS fee schedules
and I told her that when Mary Sam and Ming Wu helped to publish all of OPPS fee schedules,
we had not problem and no issue and all work assignments had been double checked by Dylan

Oxford prior to sending them to Mary Sam or Ming Wu to publish in our HCA website page.
However, when Vesna Agina took over Mary Sam’s duties, many OPPS fee schedules had
incorrect rates and problems with them. And, I had brought this problem up with Oxford and he
said we needed to get together with Gary Blair and Grant Stromsdorfer to fix all mistakes..98A
Dylan Oxford refused to approve my annual leave balance over 240 hours and I had to cancel
my trip plan. He had an authority to approve or deny my request when he was still my supervisor
prior to his lasting working in the unit on Friday, March 13, 2015, but he had no problem to
approve this type of leave for other employees in the unit.

99A **

Michael Otter-Johnson, HCA HRD Supervisor approved my FMLA for one base year from
August 18, 2014 through August 17, 2015. When Jean Bui took over the unit and became my
immediate supervisor as of March 16,2015 she refused for me to take the FMLA approval time
off and demanded that I needed to improve my poor attendance.

100A **

Dylan Oxford forced me to justify my medical reason on this form before he could agree to
approve my work schedule/shift change notice and others in the unit did not have to. Only two
persons (Mr. Blair and I) in the unit had 8:00AM-5:00PM working hours-Monday thru Friday
in the unit. Others in the unit all had their flexible hours since the day that they had been hired
by Dylan Oxford or Mr. Scott Palafox. This is the discrimination.

101A**

My HCA Training Record from July 1,2013 to March 26,2015(last physical at work day).. 102A
**

Dylan Oxford’s HCA Training Record shows he was an untrained and inexperience supervisor.
103A **

i

My 23, 2014, t tofl askgnDylah Oxford to train 5'eTof my job duties and he refused to do so.
His answer was I had not time for you and too many meetings to attend or projects to do for his
supervisor

104A -to-105 A **

Jean Bui s email demands of me and her expectations for me to do my job duties without any
necessary and required job skills training for my MAPS 3 position.

106A **

Dylan Oxford wanted me to keep track of jail payments but no training for this. In addition,
when we switched payment method from old APC to new implemented EAPG payment, I did
not receive this EAPG training payment method and Dylan Oxford did the July 2014 for our
unit when we first implemented.

107A **

Again, on February 5, 2015, Dylan Oxford refused to train me on the EAPG payment
method.. 108A. **
Kathy King, ITS 4 and Andrew Steers, ITS5 (Dylan’s friend) managed the ODS and CNSI data
program and for my program. My HCA employer did not train me to do these job duties. When
I did not know, I received the bully by Mr. Steers and Dylan did not do anything about it. They
gave me other duty assignments: out of state contract, back-up Air Ambulance Services, out of
state payments, and subcommittee work group meetings, etc.

109A to 113A **

Vessna Agina and Johnna Ziegler, Supervisor, got me in trouble with Jean Bui, and it was a set
up. Jean Bui did not want to hear about this when I had brought this up with her.... 114A * *
DSHS responded to 201805-PRR-1868 604 HRD Direct Response regarding the 31 completed
job applications with the State of Washington. They showed either reject, not qualified or not
referred to hiring manager.

115A **

I asked the ninth circuit court to respond to my rehearing en banc request (Dkt64, November 17,
2020)

116A**

19-35801’s case sununary and this page shows history and background of my case...ll7A**
19-36059 s case summary and these pages show history and background of my case from
December 13, 2019 to November 20,2020,

.118Atol24A **

February 5, 2016 Intake Questionnaire Form updated.
Unit On the Spot Award at Pierce West CSO, November 27,2000.

125A to 127A **
128A **

19-35801, record request.
U.S. District Court

129A **
Appendix B

Civil Cover Sheet, March 6,2019, filed my civil lawsuit on this day with Mr. Stefin and I have
checked all appropriate boxes and requested for a juiy demand trial.

IB **

My April 18,2019 amended filing of 42 pages and my case had been assigned to the honorable
judge Theresa L. Fricke (TLF) on this day,

,2B**

Ms. Toni Haley’s email confirmation on September 17, 2015 that she had received copy of 66
pages of documents from me
Letter or notice dated February 5,2016, she asked me to pick an option.

4B **
5B to 6B **

My email response to Ms. Haley dated February 10,2016 that I did not want to pick any option
that she had recommended and that I wanted to wait for her or EEOC to complete the
investigation and I also asked her to update the Apt.803 to my address.
I mailed my letter dated February 15,2016 to Ms. Haley and replied to her request

7B **
8B**

Professional Development Plan(PDP) September 2013, Dylan Oxford and I signed... 10B to 12B
**

Professional Development Plan(PDP) October 2014, Dylan Oxford and I signed... .13B to 15B

February 26, 2019,7 showed up at EEOC office in Seattle, and the worker at reception refused
to help me and turned me away. This is the discrimination.

16B**

3:19-cv-05171 -RBL’s case summary from most recent dates 12/13/2019 to last date 08/02/2019
show my case history and background with the U.S. District court

17B to 21B

Notice of Rights-To-Sue from December 12, 2018 from Roderick Ustanik.

22B **

Notice of Rights-To-Sue from March 1, 2019 from Kristine Jensen Nube and her letter to me
dated March 4, 2019

23B**

Notice of Charge of Discrimination from July 26, 2018 from Nancy Sienko

24B **

Notice of Charge of Discrimination from April 16,2015 from Nancy Sienko.. ..25B to 26B **
Email communication on March 4, 2019 with Roderick Ustanik, EEOC

27B **

These two pages show the colonoscopy specialist or doctor poke me during my colonoscopy
procedured.

28B to 29B **

Dr. Thmh Xuan Ho’s medical report.

30B **

Dylan Oxford forced me to fix 19 fee schedules for him without taking lunch many days. ..31B
**

Dr. Jill C. Kinney’s medical report from July 5, 2015

,32B**

Michael Otter-Johnson responded to EEOC, Hattie Y. Reed

34B **

My completed WSHRC Interrogative Questions and returned to Idolina Reta.

35B**

Attorney, Gregory Silvey, AGO’s Attorney, April 11,2019 email response that he was going to
investigate about the complaint that I filed with AGO for the discrimination and he did not do
as he stated and this is the discrimination
My email communication with Kurt Spiegel, AFSCME UNION Supervisor.
Stephanie CA090perations Manager during COVID19 and denied of my case m

36B **
37B**

Docket number 61 and 63 and the December 1,2020 response.

38B **

Mr. David Stillman responded to Ms. Sharon Ortiz at WSHRC that we did not discriminate
against Mr. Timothy Francis-Moore, my x-employee, his letter dated February 28,2014,
attached page 1 and last page and Mr. David Stillman, ESA Secretary declined to meet and
refused to help me with my personnel issues. Total attached pages: 4.

,39B

Note: All of the above records in Appendix A and Appendix B came from the electronic case
files with the 9th Circuit court and the U.S. District Court. There are available to the U.S.
Supreme Court in the electronic case files at these two courts. The U.S. Supreme Court can
access to my electronic case files. Due to the financial hardship, I have attached and mailed
some evidences along with my this second amended petition for a writ of certiorari, see **
And, there are many more evidences in the electronic case files with both courts. Today, I am
filing my second amended petition for a writ of certiorari under rule 33.2 and forma pauperis.
The 9th Circuit court honorable judge Canby and Gould have granted my 5505 docket filing fee
waiver under forma pauperis (attached Docket #22, March 4,2020), and I respectfully request
the U.S. Supreme Court to grant and waive the $300 docket filing fee me. Thank you.

END INDEX TO APPENDIX A THRU A129 AND B THRU 39B

(i or iyyj

Case: 19-36059, 06/05/2020, ID: 11712480, DktEntry: 44-1, Page 1 of 25

NO. 19-36059
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
KANHA BOUNCHANH,
Plaintiff - Appellant,
v.

WASHINGTON STATE HEALTH CARE AUTHORITY, et al,
Defendants - Appellees.

ON APPEAL FROM THE
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
No. 3:19-cv-05171 -RBL
The Honorable Ronald B. Leighton
United States District Court Judge

SUPPLEMENTAL EXCERPTS OF RECORD - VOLUME I

ROBERT W. FERGUSON
Attorney General
BRIAN J. BAKER, WSBA No. 54491
Assistant Attorney General
P.O.Box 40126
Olympia, WA 98504-0126
(360) 586-6300

(2 or iyy)

Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 2 of 25

INDEX TO SUPPLEMENTAL EXCERPTS OF RECORD
Date
03/02/20

11/25/19
11/22/19
11/15/19
03/02/20

Dkt#
152
146
145
143
153
150
150-1
150-2
150-3
150-4
150-5
150-6
150-7
150-8
149
149-1
149-2
149-3
149-4
149-5
149-6
149-7
149-8
116

12/11/19
12/11/19
12/11/19
12/11/19
12/11/19
12/11/19
12/11/19
12/11/19
12/11/19
12/10/19
12/10/19
12/10/19
12/10/19
12/10/19
12/10/19
12/10/19
12/10/19
12/10/19
09/09/19
04/18/19 007
04/18/19 007-1
03/10/20

Document
Order
Order on Review of Motion for Recusal
Order Denying Motion to Recuse
Order
Judgment In a Civil Case
Amended Notice of Appeal
Exhibit 001
Exhibit 002
Exhibit 003
Exhibit 004
Exhibit 005
Exhibit 006
Exhibit 007
Exhibit 008
Notice of Appeal
Exhibit 001
Exhibit 002
Exhibit 003
Exhibit 004
Exhibit 005
Exhibit 006
Exhibit 007
Exhibit 008
Response to Motion
Amended Complaint
Praecipe
3:19-cv-05171 -RBL Docket

Vol. Pages
I
1-2
I
3-5
I
6-8
I
9-22
II
23
II
24-25
II
26-27
II
28-34
II
35-36
II
37
II
38
II
39
II
40-69
II
70-77
II
78
II
79-84
II
85-86
II
87r93
II
94-95
II
96
II
97
II
98
II
99-135
II 136-142
II 143-184
II
185
II 186-192

(3 or iyy;
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 3 of 25
Case 3:19-cv-05171-RBL Document 152 Filed 03/02/20 Page 1 of 2

HONORABLE RONALD B. LEIGHTON

1
2
3
4
5
6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

7
8

KANNHA BOUNCHANH,

CASE NO. C19-5171RBL

9
Plaintiff,
10

ORDER

v.

11

WA STATE HEALTH CARE
AUTHORITY,

12
Defendant.
13
14
15
THIS MATTER is before the Court on its own Motion. The Court granted the federal and

16
17
18
19
20
21
22
23

state Defendants’ Motions to Dismiss with prejudice and without leave to amend, but provided
Plaintiff Bounchanh an opportunity to amend his Title VII claims against the DSHS. [Dkt. #
143]. Bounchanh did not amend his claim and instead appealed this and other Orders [Dkt. #
149].
//
//
//

24

ORDER- 1

SER 1

(4 or i yy)

Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 4 of 25
Case 3:19-cv-05171-RBL Document 152 Filed 03/02/20 Page 2 of 2

1

Therefore, Bounchanh’s Title VII claim remains defective and it is DISMISSED with

2

prejudice and without leave to amend. The Clerk shall enter a Judgment in the Defendants’ favor

3

on all of Plaintiff Bounchanh’s claims. The case is closed.

4

IT IS SO ORDERED.

5

Dated this 2nd day of March, 2020.

n

6
7

Ronald B. Leighton
United States District Judge

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

ORDER - 2

SER2

(t> ot nyyj
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 5 of 25
Case 3:19-cv-05171-RBL Document 146 Filed 11/25/19 Page 1 of 3

1
2
3
4
5
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7
8

KANNHA BOUNCHANH,
Plaintiff,

9
10
11
12

v.

CASE NO. C19-5171-RBL
ORDER ON REVIEW OF
MOTION FOR RECUSAL

WA STATE HEALTH CARE
AUTHORITY, et al.,
Defendants.

13
14
15
16
17
18
19
20
21
22
23
24

On November 18, 2019, Plaintiff Bounchanh filed a Motion seeking to disqualify the
Honorable Ronald B. Leighton in this matter. Dkt. #144. On November 22,2019, Judge Leighton
issued an Order declining to recuse himself and, in accordance with this Court’s Local Rules,
referring that decision to the Chief Judge for review. Dkt. #145; LCR 3(f). The Court will not
address the other rulings contained in that Order.
A judge of the United States shall disqualify himself in any proceeding in which his
impartiality “might reasonably be questioned.” 28 U.S.C. § 455(a). Federal judges also shall
disqualify themselves in circumstances where they have a personal bias or prejudice concerning
a party or personal knowledge of disputed evidentiary facts concerning the proceeding. 28 U. S .C.
§ 455(b)(1). Pursuant to 28 U.S.C. § 144, “whenever a party to any proceeding in a district court
makes and files a timely and sufficient affidavit that the judge before whom the matter is pending
ORDER ON REVIEW OF MOTION FOR
RECUSAL - 1
SER 3

(b ot iyyj
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 6 of 25
Case 3:19-cv-05171-RBL Document 146 Filed 11/25/19 Page 2 of 3

1

has a personal bias or prejudice either against him or in favor of any adverse party, such judge

2 shall proceed no further therein, but another judge shall be assigned to hear such proceeding.”
3 “[A] judge’s prior adverse ruling is not sufficient cause for recusal.” United States v. Studley,
4 783 F.2d 934, 939 (9th Cir. 1986); see also Taylor v. Regents ofUniv. of Cal., 993 F.2d 710, 712
5

(9th Cir. 1993) (“To warrant recusal, judicial bias must stem from an extrajudicial source.”).

6

On November 15, 2019, the Court dismissed many of Plaintiff s claims on the basis that

7 several defendants were entitled to sovereign immunity and certain claims were time-barred or not
8 cognizable as a matter of law. See Dkt. #143. Plaintiff now seeks recusal of Judge Leighton
9 because of the Court’s decision that dismissed Plaintiffs claims and ordered Plaintiff to file an
10 amended complaint. Dkt. #144 at 9. Plaintiff argues that because of this adverse ruling, the Court
11

has “discriminated against him based on his race, national origin, disability, age and sexual

12 orientation,” and violated his human rights, the Civil Rights Act of 1964, the Americans with
13 Disabilities Act (“ADA”), and the Americans with Disabilities Act Amendments Act (“ADAAA”).
14 Id
15

Plaintiffs Motion contains various allegations that the Court and its staff discriminated

16 against him. These claims include that Judge Leighton failed to “take all related admissible and
17 undisputable evidences into account” in reaching his decisions and that court staff “attempted to
18 hide some evidences from my case.” Id. at 4. Plaintiff references several orders in this case in
19 which the Court ruled adversely again him. Id. at 2. Plaintiff also indicates that the case was
20 originally assigned to a magistrate judge, the Honorable Theresa Fricke, and then reassigned to
21
22

Judge Leighton. Id. at 4.
Nothing presented in Plaintiffs Motion convinces the Court that the standards for recusal

23 have been met. All of Plaintiffs allegations of discrimination and human rights violations are
24
ORDER ON REVIEW OF MOTION FOR
RECUSAL - 2
SER 4

{( ot iyyj
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 7 of 25
Case 3:19-cv-05171-RBL Document 146 Filed 11/25/19 Page 3 of 3

1

factually and/or legally unsupported. Because these unsupported and conclusory allegations are

2 insufficient to demonstrate the appearance of bias or prejudice, the Court finds no evidence upon
3 which to reasonably question Judge Leighton’s impartiality.
4

Accordingly, the Court hereby ORDERS that Judge Leighton’s refusal to recuse himself

5 from this matter is AFFIRMED. The Clerk SHALL provide copies of this order to Plaintiff and
6 to all counsel of record.
7
8

DATED this 25 day of November, 2019.

9

. 3

10

RICARDO S. MARTINEZ
CHIEF UNITED STATES DISTRICT JUDGE

11
12
13
14
15
16
17
18
19
20
21
22
23
24
ORDER ON REVIEW OF MOTION FOR
RECUSAL - 3

SER 5

(« or iyy)
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 8 of 25
Case 3:19-cv-05171-RBL Document 145 Filed 11/22/19 Page 1 of 3

1

HONORABLE RONALD B. LEIGHTON

2
3
4
5
6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

7
8

KANNHA BOUNCHANH,

CASE NO. C19-5171RBL

9
Plaintiff,
10
11

v.

ORDER DENYING MOTION TO
RECUSE

WA STATE HEALTH CARE
AUTHORITY, et al.,

12
Defendants.
13
14
15
16
17
18
19
20
21
22
23

THIS MATTER is before Plaintiff Bounchanh’s Motion to Recuse [Dkt. # 144]. This
Court recently dismissed the bulk of Bounchanh’s claims against the bulk of the defendants,
determining that they were largely time time-barred, that the defendants had immunity from
them, or that the claims were not cognizable as a matter of law. [See Order at Dkt. # 143]. The
Order gave Bounchanh 30 days to file an amended complaint remedying the deficiencies of his
claim against the remaining potential defendant, DSHS.
Bounchanh now claims that his lawsuit was “timely” and that this Court “once again”
“discriminated against him based on his race, national origin, disability, age and sexual
orientation,” and violated his human rights, the Civil Rights Act of 1964, the ADA, and the
AD AAA.

24

ORDER DENYING MOTION TO RECUSE - 1

SER 6

(y or iyyj
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 9 of 25
Case 3:19-cv-05171-RBL Document 145 Filed 11/22/19 Page 2 of 3

1

Under the Local Rules of this District, a motion for recusal is addressed first to the

2

presiding judge, and if the judge does not recuse voluntarily, the matter is referred to the chief

3

judge for review. See LCR 3(e). This Court therefore considers McAllister’s motion in the first

4

instance.

5

A federal judge should recuse himself if “a reasonable person with knowledge of all the

6

facts would conclude that the judge’s impartiality might reasonably be questioned.” 28 U.S.C.

7

§ 144; see also 28 U.S.C. § 455; Yagman v. Republic Insurance, 987 F.2d 622, 626 (9th Cir.

8

1993). This objective inquiry is concerned with whether there is the appearance of bias, not

9

whether there is bias in fact. See Preston v. United States, 923 F.2d 731, 734 (9th Cir. 1992); see

10

also United States v. Conforte, 624 F.2d 869, 881 (9th Cir. 1980). In the absence of specific

11

allegations of personal bias, prejudice, or interest, neither prior adverse rulings of a judge nor his

12

participation in a related or prior proceeding is sufficient” to establish bias. Davis v. Fendler,

13

650 F.2d 1154, 1163 (9th Cir. 1981). Judicial rulings alone “almost never” constitute a valid

14

basis for a bias or partiality motion. Liteky v. United States, 510 U.S. 540, 555 (1994).

15

Bounchanh’s ten-page Motion to Recuse is filled with accusations of discrimination,

16

cover-ups, conspiracies and “hiding” his evidence, aimed at the Court and its staff (and at the

17

defendants). Bounchanh’s claims of bias all derive from the Court’s adverse decision(s) in this

18

litigation. He asks the Chief Judge to “recuse” Judge Leighton and assign his case to a different,

19

unbiased judge.

20

Bounchanh has made no showing of even the appearance of any bias or prejudice or lack

21

of impartiality on the part of the Court. Conclusory allegations of discrimination and bias are not

22

enough, particularly where they are based only on ruling made in this case. Judicial rulings are

23

“almost never” sufficient to meet the recusal threshold.

24

ORDER DENYING MOTION TO RECUSE - 2

SER 7

(iu or iyy)
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 10 of 25
Case 3:19-cv-05171-RBL Document 145 Filed 11/22/19 Page 3 of 3

>

1

For these reasons, Court will not voluntarily recuse itself from this case. Bounchanh’s

2

Motion for Recusal [Dkt. #144] is DENIED. Under LCR 3(e), this Matter is REFERRED to

3

Chief Judge Martinez for review.

4

The Court will STAY the 30-day period for filing an amended complaint against DSHS,

5

addressing and correcting the flaws outlined in the Court’s Order, from the date of this Order to

6

the date of Judge Martinez’s Order reviewing it.

7

IT IS SO ORDERED.

8

Dated this 22nd day of November, 2019.

9
10
Ronald B. Leighton
United States District Judge

11
12
13
14
15
16
17
18
19
20
21
22

A

23
24

ORDER DENYING MOTION TO RECUSE - 3

SER 8

or iyyj

Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-2, Page 1 of 174

NO. 19-36059
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
KANHA BOUNCHANH,
Plaintiff - Appellant,
v.

WASHINGTON STATE HEALTH CARE AUTHORITY, et al,
Defendants - Appellees.

ON APPEAL FROM THE
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
No. 3:19-cv-05171-RBL
The Honorable Ronald B. Leighton
United States District Court Judge

SUPPLEMENTAL EXCERPTS OF RECORD - VOLUME II

ROBERT W. FERGUSON
Attorney General
BRIAN J. BAKER, WSBA No. 54491
Assistant Attorney General
P.O. Box 40126
Olympia, WA 98504-0126
(360) 586-6300

(z/ or iyy;
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-2, Page 2 of 174

INDEX TO SUPPLEMENTAL EXCERPTS OF RECORD
Date
03/02/20

11/25/19
11/22/19
11/15/19
03/02/20

Dkt#
152
146
145
143
153
150
150-1
150-2
150-3
150-4
150-5
150-6
150-7
150-8
149
149-1
149-2
149-3
149-4
149-5
149-6
149-7
149-8
116

12/11/19
12/11/19
12/11/19
12/11/19
12/11/19
12/11/19
12/11/19
12/11/19
12/11/19
12/10/19
12/10/19
12/10/19
12/10/19
12/10/19
12/10/19
12/10/19
12/10/19
12/10/19
09/09/19
04/18/19 007
04/18/19 007-1
03/10/20

Document
Order
Order on Review of Motion for Recusal
Order Denying Motion to Recuse
Order
Judgment In a Civil Case
Amended Notice of Appeal
Exhibit 001
Exhibit 002
Exhibit 003
Exhibit 004
Exhibit 005
Exhibit 006
Exhibit 007
Exhibit 008
Notice of Appeal
Exhibit 001
Exhibit 002
Exhibit 003
Exhibit 004
Exhibit 005
Exhibit 006
Exhibit 007
Exhibit 008
Response to Motion
Amended Complaint
Praecipe
3:19-cv-05171 -RBL Docket

Vol.
I
I
I
I
II
II
II
II
II
II
II
II
II
II
II
II
II
II'
II
II
II
II
II
II
II
II
II

Pages
1-2
3-5
6-8
9-22
23
24-25

26-27
28-34

35-36
37
38

39
40-69
70-77
78

79-84
85-86
87-93
94-95
96
97
98
99-135
136-142
143-184
185
186-192

(n or iyy)
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 11 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 1 of 14

HONORABLE RONALD B. LEIGHTON

1
2
3
4
5
6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

7
8

KANNHA BOUNCHANH,

CASE NO. 3:19-CV-05171 -RBL

9
Plaintiff,
10
11

ORDER

v.
WA STATE HEALTH CARE
AUTHORITY, et al.,

12
Defendants.
13
14
15
16
17
18
19

I. INTRODUCTION
THIS MATTER is before the Court on Defendants’ Motions to Dismiss.1 (Dkt. ## 97 &
98). Pro se plaintiff Kannha Bounchanh has also filed four motions: Motion for Copy of the
Transcript or Partial Records (Dkt # 134), Motion for Leave to Appeal in forma pauperis
(Dkt #118), Motion for Court Appointed Counsel in Title VII Action (Dkt # 133), and a Motion
to Request Scheduling the Jury Demand Trial Date (Dkt # 115).

20
21
22
23
24

i
This Order resolves two motions to dismiss filed by all remaining defendants. The State Defendants (AGO, DSHS,
HCA and their individual employees) filed one motion (Dkt # 97), and the Federal Defendants (the EEOC and its
individual employees) filed the other (Dkt # 98).

ORDER - 1

SER 9

(vz or ryy)
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 12 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 2 of 14

1

Bounchanh worked for the Department of Social and Health Services until 2013 and the

2

Washington Health Care Authority until 2015. The circumstances of his departure from either

3

job are not clear, but he appears to have voluntarily resigned.

4

In 2015, Bounchanh complained to the EEOC that HCA had discriminated against him.

5

The gist of his claims was that the agency and its employees failed to reasonably accommodate

6

his disability, discouraged him from taking leave for his health conditions, and bullied and

7

retaliated against him. Bounchanh also claimed that HCA discriminated2 against him because of

8

his race, national origin, sexual orientation, age, and disability. The EEOC found no probable

9

cause to pursue Bounchanh’s claims. He received an EEOC right-to-sue letter on May 13, 2016,

10

but he did not sue. The letter notified Bounchanh that he had to sue HCA within 90 days, or he

11

would lose his right to sue based on the charges in his complaint.

12

In 2018, Bounchanh applied for several jobs at DSHS. He was not hired, and he again

13

complained to the EEOC. He claimed that DSHS discriminated against him based on his race,

14

sexual orientation, age, and disability, and retaliated against him for participating in another

15

employee’s unrelated EEOC claim, and because of his prior EEOC complaint (about HCA). The

16

EEOC again found no probable cause to pursue Bounchanh’s claims. Bounchanh received a

17

second EEOC right-to-sue letter on January 25, 2019.

18

On March 6, 2019, Bounchanh sued his former employers (and 41 other defendants3) for

19

employment discrimination. His Amended Complaint largely repeats the claims he made in both

20
21
22
23
24

2 Bounchanh claims that he sought to amend his 2015 EEOC complaint to include allegations that DSHS “teamed
up” with HCA to discriminate against him. EEOC’s right-to-sue letter did not address those amended claims
(perhaps because he had not worked at DSHS for more than 180 days, even then). Even if the EEOC had sent a
right-to-sue letter about DSHS’s “2015 conduct,” Bounchanh would have had the same 90 days to sue.
3 The Court previously dismissed Bounchanh’s claims against his union, (the American Federation of State, County
and Municipal Employees (Dkt # 68), and the state agency (WSHRC) that investigated his 2018 discrimination
complaint (Dkt. # 102).

ORDER - 2

SER 10

(i3 or iyyj
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 13 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 3 of 14

1

his 2015 and 2018 EEOC complaints. Additionally, Bounchanh claims that numerous employee

2

defendants violated the Health Insurance Portability and Accountability Act (“HIPAA”) when

3

they spoke to his doctor and obtained his confidential medical information. He also claims that

4

they violated the Family and Medical Leave Act (“FMLA”) by discouraging him from taking

5

leave for personal medical conditions.

6

Bounchanh also claims that DSHS, HCA, and their employees violated Title VII of the

7

Civil Rights Act of 1964, the Age Discrimination in Employment Act of 1967 (“ADEA”), the

8

Americans with Disabilities Act of 1990 (“ADA”), the ADA Amendments Act of 2008

9

(“ADAAA”) when they bullied, retaliated, and discriminated against him because of his race,

10
11

age, sex, disability, and for complaining to the EEOC in 2015.
Bounchanh also sued the entities that investigated his claims in 2015 and 2018—the

12

Equal Employment Opportunity Commission, the Washington State Human Rights Commission,

13

and Washington State Attorney General’s Office.4 Bounchanh claims that the EEOC violated

14

HIPAA when it allegedly lost or mishandled the “confidential documents” that he submitted with

15

his 2015 EEOC compliant. Bounchanh does not and cannot claim that he was ever an employee

16

of any of these agencies or that he applied for a job with them. He claims instead that they

17

negligently investigated his claims about HCA and DSHS because they found no probable cause

18

to pursue Bounchanh’s claims and declined to do so. Bounchanh claims these agencies similarly

19

violated Title VII, the ADA, ADAAA, ADEA, and FMLA even though they did not employ him.

20
21

All remaining Defendants move to dismiss Bounchanh’s remaining claims. First, each
Defendant argues correctly that there is no private right of action under HIPAA. HCA argues that

22
23
24

4 Bounchanh sued the AGO for failing to investigate an undescribed but possibly related tort claim against HCA and
its employees in 2015. The AGO determined that his tort claim did not have merits and declined to pursue it.
Bounchanh never sued HCA or its employees for the tort claim, but now sues AGO for negligently investigating it.

ORDER - 3

SER 11

(14 or iyyj
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 14 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 4 of 14

1

all Bounchanh’s FMLA claims are time-barred. FMLA claims are subject to a two-year

2

limitations period. Bounchanh left HCA in 2015 and did not sue until 2019.

3

HCA also argues that Bounchanh’s Title VII, ADA, ADAAA, and ADEA claims arise

4

from the violations he described in his 2015 EEOC complaint and are time-barred. A plaintiff

5

has 90 days from the date of a right-to-sue letter to sue for the violations alleged in an EEOC

6

complaint. Bounchanh received his right-to-sue letter on May 13, 2016 but did not sue until

7

March 6, 2019—1027 days later.

8

Defendants also argue that Bounchanh’s similar claims based on the events he

9

complained about to the EEOC in 2018 are fatally flawed, even if they are not time-barred. The

10

individual employee defendants correctly point out that the ADA, ADEA, and Title VII do not

11

permit claims against individual employees—those claims may be asserted only against

12

employers. EEOC and AGO argue that they have sovereign immunity from Bounchanh’s claims

13

against them, because they never employed him. They argue that because they are immune, the

14

Court does not have subject matter jurisdiction over Bounchanh’s claims.

15

DSHS similarly argues that, as a state agency, it has Eleventh Amendment immunity

16

from Bounchanh’s ADA and ADEA claims. Finally, DSHS argues that while the Court does

17

have jurisdiction over Bounchanh’s Title VII claim against it, that claim is not plausible because

18

Bounchanh has failed to plead any facts supporting even an inference that DSHS discriminated

19

against him when it did not hire him in 2018.

20

None of Bounchanh’s numerous filings or motions address any of these arguments. He

21

asks the Court to allow a jury to hear his claims and to view his evidence, reiterates that the

22

EEOC and the AGO did not properly investigate his claims (dating to 2015) about his treatment

23

at the HCA and DSHS. He again claims that DSHS, the HCA, and their individual employees

ISA-

24

ORDER - 4

SER 12

(14 ot iyyj

Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 14 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 4 of 14

1

all Bounchanh’s FMLA claims are time-barred. FMLA claims are subject to a two-year

2

limitations period. Bounchanh left HCA in 2015 and did not sue until 2019.

3

HCA also argues that Bounchanh’s Title VII, ADA, ADAAA, and ADEA claims arise

4

from the violations he described in his 2015 EEOC complaint and are time-barred. A plaintiff

5

has 90 days from the date of a right-to-sue letter to sue for the violations alleged in an EEOC

6

complaint. Bounchanh received his right-to-sue letter on May 13, 2016 but did not sue until

7

March 6, 2019—1027 days later.

8

Defendants also argue that Bounchanh’s similar claims based on the events he

9

complained about to the EEOC in 2018 are fatally flawed, even if they are not time-barred. The

10

individual employee defendants correctly point out that the ADA^ ADEA, and Title VII do not

11

permit claims against individual employees—those claims may be asserted only against

12

employers. EEOC and AGO argue that they have sovereign immunity from Bounchanh’s claims

13

against them, because they never employed him. They argue that because they are immune, the

14

Court does not have subject matter jurisdiction over Bounchanh’s claims.

15

DSHS similarly argues that, as a state agency, it has Eleventh Amendment immunity

16

from Bounchanh’s ADA and ADEA claims. Finally, DSHS argues that while the Court does

17

have jurisdiction over Bounchanh’s Title VII claim against it, that claim is not plausible because

18

Bounchanh has failed to plead any facts supporting even an inference that DSHS discriminated

19

against him when it did not hire him in 2018.

20

None of Bounchanh’s numerous filings or motions address any of these arguments. He

21

asks the Court to allow a jury to hear his claims and to view his evidence, reiterates that the

22

EEOC and the AGO did not properly investigate his claims (dating to 2015) about his treatment

23

at the HCA and DSHS. He again claims that DSHS, the HCA, and their individual employees

24

AORDER-4

SER 12

(ib ot iyy)
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 15 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 5 of 14

1

bullied, retaliated and discriminated against him. But he fails to articulate how any of the alleged

2

conduct is actionable under the authorities cited in the Motions.

3
4
5

I. DISCUSSION
A. Legal Standard
When considering a motion to dismiss under Federal Rule of Civil Procedure 12(b)(1) or

6

12(b)(6), the court construes the complaint in the light most favorable to the non-moving party.

7

See Livid Holdings Ltd. v. Salomon Smith Barney, Inc., 416 F.3d 940, 946 (9th Cir. 2005); Wolfe

8

v. Strankman, 392 F.3d 358, 362 (9th Cir. 2004). Generally, the court must accept as true all

9

well-pleaded allegations of material fact and draw all reasonable inferences in favor of the

10
11

plaintiff. See Wyler Summit P’ship v. Turner Broad. Sys., Inc., 135 F.3d 658, 661 (9th Cir. 1998).
In a motion to dismiss under Rule 12(b)(1), the plaintiff bears the burden of proving that

12

the court has subject matter jurisdiction to decide the case. See Kokkonen v. Guardian Life Ins.

13

Co., 511 U.S. 375, 377 (1994). A complaint must be dismissed under Fed. R. Civ. P. 12(b)(1) if

14

the defendants are entitled to sovereign immunity. Pistor v. Garcia, 791 F.3d 1104, 1111 (9th

15

Cir. 2015) (explaining that sovereign immunity is “quasi-jurisdictional in nature” and therefore

16

appropriately considered under Rule 12(b)(1)).

17

Dismissal under Fed. R. Civ. P. 12(b)(6) may be based on either the lack of a cognizable

18

legal theory or the absence of sufficient facts alleged under a cognizable legal theory. Balistreri

19

v. Pacifica Police Dep’t, 901 F.2d 696, 699 (9th Cir. 1990). A plaintiffs complaint must allege

20

facts to state a claim for relief that is plausible on its face. See Ashcroft v. Iqbal, 556 U.S. 662,

21

678 (2009). A claim has “facial plausibility” when the party seeking relief “pleads factual

22

content that allows the court to draw the reasonable inference that the defendant is liable for the

23

misconduct alleged.” Id. Although the court must accept as true the Complaint’s well-pled facts,

24

conclusory allegations of law and unwarranted inferences will not defeat an otherwise proper

ORDER- 5

SER 13

(ib or iyyj
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 16 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 6 of 14

1

12(b)(6) motion to dismiss. Vazquez v. Los Angeles Cty., 487 F.3d 1246, 1249 (9th Cir. 2007);

2

Sprewell v. Golden State Warriors, 266 F.3d 979, 988 (9th Cir. 2001). “[A] plaintiffs obligation

3

to provide the ‘grounds’ of his ‘entitle[ment] to relief requires more than labels and conclusions,

4

and a formulaic recitation of the elements of a cause of action will not do. Factual allegations

5

must be enough to raise a right to relief above the speculative level.” Bell Atl. Corp. v. Twombly,

6

550 U.S. 544, 555 (2007) (citations and footnotes omitted). This requires a plaintiff to plead

7

“more than an unadorned, the-defendant-unlawfully-harmed-me-accusation.” Iqbal, 556 U.S. at

8

678 (citing id.). A pro se Plaintiffs complaint is to be construed liberally, but like any other

9

complaint it must nevertheless contain factual assertions sufficient to support a facially plausible

10

claim for relief. Id.

11

B. No Private Right of Action

12

“HIPAA itself provides no private right of action.” Webb v: Smart Document Sols., LLC,

13

499 F.3d 1078, 1081 (9th Cir. 2007). It allows DSHS (only) to penalize organizations for

14

violating the statute. See 42 U.S.C. § 1320d-5. Bounchanh cannot sue Defendants under HIPAA

15

for mishandling or obtaining his medical records. Defendants’ Motions to Dismiss Bounchanh’s

16

HIPAA claims are GRANTED and those claims are DISMISSED with prejudice and without

17

leave to amend.

18

C. Time-barred Claims

19

FMLA requires an employee to file any claims “not later than 2 years after the date of the

20

last event constituting the alleged violation for which the action is brought” 29 U.S.C § 2617(c).

21

Bounchanh sued nearly four years after his last day of employment with HCA—well beyond the

22

FMLA’s two-year limitations period. Each of Bounchanh’s FMLA claims are time-barred.

23

Defendants’ Motion to Dismiss his FMLA claims are GRANTED and those claims are

24

DISMISSED with prejudice and without leave to amend.

ORDER- 6

— fgA
SER 14

. (i/ or iyy;
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 17 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 7 of 14

1

An aggrieved party must complain to the EEOC within 180 days of the unlawful

2

employment practice before suing an employer for violating Title VII, ADA, ADEA, or

3

ADAAA. 42 U.S.C. § 2000e-5(e)(l). A plaintiff has 90 days to sue from the date he receives his

4

right-to-sue letter from the EEOC. 42 U.S.C. § 2000e-5(f)(l); Surrell v. California Water Serv.

5

Co., 518 F.3d 1097, 1104 (9th Cir. 2008). These same time limitations apply to employment

6

discrimination claims under ADEA and Title I of the ADA.5 29 U.S.C. § 626(e); 42 U.S.C. §

7

12117.

8

Bounchanh complained to the EEOC that HCA had discriminated against him in 2015,

9

and he received a right-to-sue letter on May 13, 2016. The 90-day period to sue began to run

10

when the EEOC notified him that it would not pursue his claim. Bounchanh did not sue until

11

March 6, 2019, 1027 days after he received his right-to-sue letter. Defendants’ Motion to

12

Dismiss Bounchanh’s Title VII, ADEA, ADA, and ADAAA claims against HCA and its

13

individual employees arising from his 2015 EEOC complaint are GRANTED and those claims

14

are DISMISSED with prejudice and without leave to amend.

15

D. No Personal Liability

16

The remaining employee defendants argue that Bounchanh cannot sue the individual

17

employees for employment discrimination. Title VII, ADA, and ADEA do not permit employees

18

to be sued in their individual capacity. See, e.g., Pink v. Modoc Indian Health Project, Inc., 157

19

F.3d 1185, 1189 (9th Cir. 1998) (“[Cjivil liability for employment discrimination does not

20

extend to individual agents of the employer who committed the violations, even if that agent is a

21
22
23
24

5 Defendants correctly argue that Bounchanh’s ADA claims are subject to the 90-days limitations period because
employment discrimination claims arise under Title I of the ADA. Zimmerman v. Oregon Dep't ofJustice, 170 F.3d
1169, 1176 (9th Cir. 1999). Bounchanh also sues under ADAAA, which amended certain Title II and III ADA
claims to a four-year limitations period. Defendants correctly argue that ADAAA does not impact the 90-day
limitations period for Bounchanh’s Title I ADA claims. All Bounchanh’s ADAAA claims are dismissed because
ADAAA does not apply to employment disability discrimination claims.

ORDER - 7

SER 15

(i« or iyyj
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 18 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 8 of 14

1

supervisory employee.”). The liability schemes under Title VII and ADEA “both limit civil

2

liability to the employer.” Miller v. Maxwell's Int'lInc., 991 F.2d 583, 587-88 (9th Cir. 1993)

3

(citing 42 U.S.C. § 2000e-5(g) (1988) and 29 U.S.C. § 626(b) (1988)). Further, because “Title I

4

of the ADA adopts a definition of ‘employer’ and a remedial scheme that is identical to Title

5

VII,” the Ninth Circuit has ruled that individual defendants cannot be held personally liable for

6

violations of Title I of the ADA. Walsh v. Nevada Dep't ofHuman Res., 471 F.3d 1033, 1038

7

(9th Cir. 2006); see 42 U.S.C. §§ 1211 l(5)(a), 12117(a).

8

Bounchanh cannot sue DSHS, AGO, or EEOC’s individual employees under Title VII,

9

the ADA, and ADEA and they cannot be held personally liable for employment discrimination

10

by the employer. Defendants’ Motions to Dismiss Bounchanh’s remaining Title VII, ADEA, and

11

ADA claims against the individual employee defendants are GRANTED and those claims are

12

DISMISSED with prejudice and without leave to amend.

13

E. Sovereign Immunity

14

EEOC argues that because it never employed Bounchanh, it has sovereign immunity

15

from Bounchanh’s Title VII, ADA, and ADEA claims. It cannot be sued in its capacity as an

16

investigatory agency. The United States or a federal agency may not be sued unless it has

17

consented to suit, or Congress has waived its immunity. See United States v. Dalm, 494 U.S.

18

596, 608 (1990); City of Whittier v. U.S. Dep’t ofJustice, 598 F.2d 561, 562 (9th Cir. 1979). The

19

Eleventh Amendment also bars federal court actions for damages brought by a citizen against a

20

State without the State’s consent or a valid Congressional abrogation of immunity. Seminole

21

Tribe ofFla. v. Florida, 517 U.S. 44, 54-55 (1996). Waivers and abrogation of sovereign

22

immunity must be “unequivocally expressed” and “unmistakably clear” in the statute’s language.

23

SeeKimel v. Fla. Bd. ofRegents, 528 U.S. 62, 73 (2000) (quoting Dell muth v. Muth, 491 U.S.

24

223, 228 (1989)); United States v. Nordic Village, Inc., 503 U.S. 30, 34 (1992). Where the

ORDER- 8

ZO ASER 16

(iy or iyy)
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 19 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 9 of 14

1

United States or a State is entitled to sovereign immunity, the Court lacks subject matter

2

jurisdiction and dismissal is required. See Gilbert v. DaGrossa, 756 F.2d 1455, 1458 (9th Cir.

3

1985).

4

For federal agencies, Title VII, ADA, and ADEA waive sovereign immunity for

5

discrimination lawsuits by employees and job applicants against the agency as an employer. See,

6

e.g., 42 U.S.C. § 2000e-5(f)(3) (Title VII). But none of the statutes waive an agency’s immunity

1

when they are acting in an investigatory capacity, and not as an employer. See, e.g., Leitner v.

8

Potter, No. C05-5674RBL, 2008 WL 750584, at *2 (W.D. Wash. Mar. 18, 2008).

9

Bounchanh does not claim that EEOC employed him or that he applied to work there.

10

Instead, Bounchanh claims only that EEOC negligently investigated his employment

11

discrimination complaints.6 The Court has no jurisdiction over Bounchanh’s claims against

12

EEOC in its investigatory capacity because Congress waived EEOC’s sovereign immunity only

13

when sued as an employer. Defendants’ Motion to Dismiss Bounchanh’s remaining ADA,

14

ADEA, and Title VII claims against EEOC is GRANTED and those claims are DISMISSED

15

with prejudice and without leave to amend.

16

AGO argues that it never employed Bounchanh and has Eleventh Amendment immunity

17

from Bounchanh’s Title VII, ADA, and ADEA claims. It argues that it cannot be sued in its

18

capacity as a state investigatory agency. The immunity provided by the Eleventh Amendment

19

extends to State agencies because they are effectively “arms of the state.” Alaska Cargo Transp.,

20

Inc. v. Alaska R.R. Corp., 5 F.3d 378, 379-80 (9th Cir. 1993). Congress has not abrogated a

21

State’s Eleventh Amendment under ADA and ADEA. Bd. of Trustees ofUniv. ofAlabama v.

22
23
24

6 Bounchanh’s claims against the EEOC and AGO, seemingly for negligent investigation, are also fatally flawed
because that is not a viable cause of action. See Pettis v State, 98 Wash. App. 553 (1999) (finding no common law or
statutory claim for negligent investigation).

ORDER - 9

SER 17

(2U or nyyj
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 20 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 10 of 14

1

Garrett, 531 U.S. 356, 360 (2001) (analyzing Title I of the ADA); Kimel, 528 U.S. at 92

2

(analyzing the ADEA). But Congress did abrogate a State’s Eleventh Amendment immunity

3

when it is sued as an employer under Title VII. See Fitzpatrick v. Bitzer, 427 U.S. 445 (1976); 42

4

U.S.C. § 2000e-5(f)(3).

5

Bounchanh’s claims against the AGO are fatally flawed for similar reasons to his claims

6

against EEOC. AGO is a State agency and Congress did not abrogate its immunity under ADA

7

or ADEA. Bounchanh also did not sue AGO as an employer. He sued it for negligently

8

investigating his tort claim. Congress abrogated AGO’s Eleventh Amendment immunity under

9

Title VII only as an employer, not as an investigatory agency. Defendants’ Motion to Dismiss

10

Bounchanh’s remaining ADA, ADEA, and Title VII claims against AGO is GRANTED and

11

those claims are DISMISSED with prejudice and without leave to amend.

12

DSHS argues it has Eleventh Amendment immunity from Bounchanh’s ADA and ADEA

13

claims. Congress did not abrogate DSHS’s Eleventh Amendment immunity as a State agency

14

under ADA and ADEA. However, the Court has jurisdiction over his Title VII claims because

15

Bounchanh sued DSHS as his employer. Defendants’ Motion to Dismiss Bounchanh’s remaining

16

ADA and ADEA claims against DSHS is GRANTED and those claims are DISMISSED with

17

prejudice and without leave to amend.

18

F. Failure to State a Claim

19

This leaves Bounchanh’s Title VII claim against DSHS arising from his 2018 EEOC

20

complaint. Bounchanh complained to the EEOC in 2018 that he applied to 31 jobs at DSHS and

21

“other state government agencies” but did not receive any offers because DSHS discriminated

22

against him. Dkt # 7 at 30. DSHS argues that Bounchanh has failed to plead any facts supporting

23

even an inference that DSHS discriminated against him when it did not hire him in 2018.

24

ORDER -10

SER 18

(zi or iyy)
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 21 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 11 of 14

1

A fundamental factual element of an employment discrimination claim is that the

2

defendant employed the plaintiff, or the plaintiff applied to work for them. See Sheppard v.

3

David Evans & Assoc., 694 F.3d 1045, 1049 (9th Cir. 2012). A plaintiff can establish a prima

4

facie case of employment discrimination by showing: “(i) that he belongs to a [protected class];

5

(ii) that he applied and was qualified for a job for which the employer was seeking applicants;

6

(iii) that, despite his qualifications, he was rejected; and (iv) that, after his rejection, the position

7

remained open and the employer continued to seek applicants from persons of complainant’s

8

qualifications.” See McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802 (1973).

9

Bounchanh’s 2018 EEOC claims against DSHS for employment discrimination are not

10

plausible. Bounchanh has failed to provide any information on the types ofjobs he applied for,

11

how many of those jobs were with the DSHS, his qualifications for those jobs, what other

12

comparable people were hired in lieu of him, or under what theory he was allegedly wronged for

13

not receiving these jobs. Dkt # 97 at 11. Bounchanh’s disorganized, conclusory Complaint insists

14

that he suffered several types of discrimination:

15
16
17

[Bounchanh was] rejected, denied, not qualified and/or not referred to a hiring
manager by DSHS Human Resource Recruiters while other applicants, or other
applicants with disabilities, underage [sic] of 40 and/or over 40, different race,
national origin, and different sexual orientation had their opportunity and chance
to be hired.

18

Dkt # 7 at 33. But Bounchanh’s allegations offer nothing more than speculation that DSHS’s

19

hiring committee discriminated against him and refused to consider him for employment because

20

of a protected status. Bounchanh’s theory of how DSHS discriminated against him is not

21

plausible and is insufficient to survive dismissal under Rule 12(b)(6).

22

This leaves the issue of whether Bounchanh should be allowed to amend his complaint

23

for the second time. Leave to amend a complaint under Rule 15(a) “shall be freely given when

24

ORDER -11

SER 19

(zz ot iyyj
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 22 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 12 of 14

1

justice so requires.” Carvalho v. Equifax Info. Services, LLC, 629 F.3d 876, 892 (9th Cir. 2010)

2

(citing Forman v. Davis, 371 U.S. 178, 182 (1962)). This policy is “to be applied with extreme

3

liberality.” Eminence Capital, LLC v. Aspeon, Inc., 316 F.3d 1048, 1051 (9th Cir. 2003)

4

(citations omitted). In determining whether to grant leave under Rule 15, courts consider five

5

factors: “bad faith, undue delay, prejudice to the opposing party, futility of amendment, and

6

whether the plaintiff has previously amended the complaint.” United States v. Corinthian

7

Colleges, 655 F.3d 984, 995 (9th Cir. 2011) (emphasis added). Among these factors, prejudice to

8

the opposing party carries the greatest weight. Eminence Capital, 316 F.3d at 1052. A proposed

9

amendment is futile “if no set of facts can be proved under the amendment to the pleadings that

10

would constitute a valid and sufficient claim or defense.” Gaskill v. Travelers Ins. Co., No. 11-

11

cv-05847-RJB, 2012 WL 1605221, at *2 (W.D. Wash. May 8, 2012) (citing Sweaney v. Ada

12

County, Idaho, 119 F.3d 1385, 1393 (9th Cir. 1997)).

13
.

Bounchanh has failed to state a plausible Title VII claim against DSHS relating to his

14

2018 job applications. Even though the Complaint is inadequate, dismissal is not the proper

15

remedy at this time. The Court cannot say at this stage that amendment would be futile.

16

Bounchanh shall file a proposed amended complaint against DSHS for Title VII violations

17

surrounding his 2018 job applications (consistent with his complaint to EEOC) within 30 days. If

18

Bounchanh fails to timely and plausibly amend his complaint, the case will be dismissed. The

19

amended complaint must set forth specific facts, rather than just conclusions, and must tell a

20

plausible story that amounts to a plausible Title VII claim. The complaint shall include

21

information on the types of jobs he applied for, how many of those jobs were with the DSHS, his

22

qualifications for those jobs, that people with his same qualifications were hired in lieu of him,

23
24

ORDER -12

SER20

{Z3 ot i yy)
Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 23 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 13 of 14

1

and under what theory he was allegedly wronged for not receiving these jobs. In short, he must

2

plausibly state a timely claim for employment discrimination against DSHS.

3

Defendants’ Motion to Dismiss Bounchanh’s remaining Title VII claims against DSHS is

4

DENIED conditioned on Bounchanh’s timely submission of a plausible amended complaint.

5

G. Bounchanh’s Pending Motions

6

The Ninth Circuit dismissed Bounchanh’s appeal for lack ofjurisdiction because

7

Bounchanh appealed an order that is not final or appealable. Dkt # 138. Bounchanh’s appeal

8

related motions (Dkt ## 118, 134) are DENIED as moot.

9

Bounchanh’s Motion to Request Scheduling the Jury Demand Trial Date (Dkt # 115) is

10

DENIED; the Court will schedule a trial date in due course if any claims remain un-dismissed

11

under Rule 12. Bounchanh’s Motion for Court Appointed Counsel (Dkt # 133) is also DENIED.

12

In a civil case, courts have discretion to appoint counsel and generally do so only under

13

“exceptional circumstances.” United States v. $292,888.04 in U.S. Currency, 54 F.3d 564, 569

14

(9th Cir. 1995). “A finding of exceptional circumstances requires an evaluation of both the

15

likelihood of success on the merits and the ability of the plaintiff to articulate his claims pro se in

16

light of the complexity of the legal issues involved.” Wilborn v. Escalderon, 789 F.2d 1328,

17

1331 (9th Cir. 1986) (internal quotations omitted). These factors must be viewed together before

18

reaching a decision on whether to appoint counsel under § 1915(e)(1). Id. Bounchanh falls far

19

short of this demanding standard as he has not shown any likelihood of success on the merits.
II. CONCLUSION

20
21

For the above reasons, Federal Defendants’ Motion to Dismiss (Dkt # 98) is GRANTED

22

with prejudice and without leave to amend. State Defendants’ Motion to Dismiss is GRANTED

23

in part (Dkt # 97). All other claims against the State Defendants are dismissed with prejudice and

24

without leave to amend, except for Bounchanh’s Title VII claim against DSHS relating to his

ORDER - 13

SER21

(Z4

ot

nyyj

Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-1, Page 24 of 25
Case 3:19-cv-05171-RBL Document 143 Filed 11/15/19 Page 14 of 14

1

2018 job applications. Bounchanh has 30 days to file a proposed second amended complaint

2

against DSHS for Title VII violations relating to his 2018 job applications.

3

Plaintiffs Motion for Transcripts (Dkt #134) and Motion for Leave to Appeal In Forma

4

Pauperis (Dkt #118) are DENIED as moot. Plaintiffs Motion for Court Appointed Counsel (Dkt

5

# 133) and Motion to Request Scheduling the Jury Trial (Dkt #115) are DENIED.

6
IT IS SO ORDERED.
7

Dated this 15th day of November, 2019.
8

n

9

t

Ronald B. Leighton
United States District Judge

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

ORDER -14

SER 22

/

/

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAR 4 2020
MOLLY C. DWYER, CLERK
U.S. COURT.OF APPEALS

KANNHA BOUNCHANH,

No.

Plaintiff-Appellant,

19-36059

D.C. No. 3:19-cv-05171 -RBL
Western District of Washington,
/L4&/J
Tacoma

v.
WASHINGTON STATE HEALTH CARE
AUTHORITY, AKA HCA; et al.,

ORDER

s

Defendants-Appellees.
Before: CANBY and GOULD, Circuit Judges.

C6?>fe>it'l

The court has reviewed the parties’ responses to this court’s January 9, 2020
order to show cause. A review of the district court docket reflects that on March 3,
2020 the district court entered a final order dismissing the remaining Title VII
claim against Department of Social and Health Services, and entered a final
judgment. Accordingly, the January 9, 2020 order to show cause is discharged and
this appeal shall proceed.
Appellant’s motion to proceed in forma pauperis (Docket Entry Nos. 2 5) is

AWPL- ,

n / _

„

.

c,

‘

granted.
Appellant’s motion for appointment of counsel (Docket Entry Nos. 3, 6) is
denied because a review of the record indicates that this appeal lacks sufficient
merit to warrant the appointment of counsel. See Bradshaw v. Zoological Soc ’y of

DA/Pro Se

/

fi Diego, 662 F.2d 1301 (9th Cir. 1981). No motions for reconsideration,
clarification, or modification of this denial shall be filed or entertained.
Appellant’s motion to consolidate this appeal with closed appeal No.
//

u
v/
•i

•!

19-35801 (Docket Entry No. 8) is denied.
Appellant’s motions for extension of time to file motions for relief (Docket
Entry Nos. 16, 19) are granted. Appellant’s emergency motions have been filed.
The emergency motions for relief (Docket Entry Nos. 17, 18) are denied.

R ?Ci-sS^ —-

Appellant’s motion to have this court respond to his requests (Docket Ernry gt'
No. 20) is denied as moot because all pending motions have now been addressed.
The Clerk shall file appellant’s opening brief received on December 24,
if”#
2019 (Docket Entry No. 9). The answering brief is due April 6, 2020. Appellant’s
optional reply brief is due within 21 days after service of the answering brief.
Because appellant is proceeding without counsel, the excerpts of record
requirement is waived. See 9th Cir. R. 30-1.2. Appellees’ supplemental excerpts
of record are limited to the district court docket sheet, the notice of appeal, the
judgment or order appealed from, and any specific portions of the record cited in
appellees’ brief. See 9th Cir. R. 30-1.7.

DA/Pro Se

2

^

/
/

united states court of appeals

FILED

FOR THE NINTH CIRCUIT

JUN 11 2020

/

/

/
/

KANNHA BOUNCHANH,

/

Plaintiff-Appellant,

/

v.
WASHINGTON STATE HEALTH CARE
AUTHORITY, AKA HCA; et al.,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No.

19-36059

D.C. No. 3:19-cv-05171 -RBL
Western District of Washington,
Tacoma
ORDER

Defendants-Appellees.
Before: CANBY and GOULD, Circuit Judges.
Appellant’s motions for reconsideration of the March 4, 2020 order (Docket
Entry No. 24, 25) are denied. See 9th Cir. R. 27-10. No motions for
reconsideration, clarification, or modification of this denial shall be filed or
entertained.
All future motions filed by appellant are referred to the panel that will be
assigned to hear the merits of this case.
Appellees EEOC, Toni Haley, and Nancy Sienko’s motion for summary
affirmance filed on April 3, 2020 will be addressed by separate order.
The opening brief has been filed. The answering briefs of the AFCME
Union, et al. (Docket Entry No. 29), Sharon Ortiz, et al., (Docket Entry No. 40),
and Pamela Anderson, et al. (Docket Entiy No. 45) have been filed. Appellant’s

DA/Pro Se

//
/'

/ptional reply brief and any response to the April 3, 2020 motion for summary

i;

//

affirmance are due within 21 days after the date of this order.

/

i/

//
v/
/
/
/

DA/Pro Se

2

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

AUG 7 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

KANNHA BOUNCHANH,
Plaintiff-Appellant,
v.
WASHINGTON STATE HEALTH CARE
AUTHORITY, AKA HCA; et al.,

No. 19-36059
D.C. No. 3:19-cv-05171 -RBL
Western District of Washington,
Tacoma
ORDER

Defendants-Appellees.
Before:

SCHROEDER, HAWKINS, and LEE, Circuit Judges.

Kannha Bounchanh appeals pro se from the district court’s judgment
dismissing his action alleging federal claims arising out of his employment. We
have jurisdiction under 28 U.S.C. §1291. We review de novo a dismissal under
Federal Rule of Civil Procedure 12(b)(6). Hebbe v. Pliler, 627 F.3d 338, 341 (9th
Cir. 2010). We affirm.
The district court properly dismissed Bounchanh’s Health Insurance
Portability and Accountability Act (“HIPAA”) claims because HIPAA “provides
no private right of action.” Webb v. Smart Document Sols., LLC, 499 F.3d 1078,
1081 (9th Cir. 2007).
The district court properly dismissed Bounchanh’s (1) Title VII claims
against Washington State Health Care Authority and (2) Family and Medical

Leave Act (“FMLA”) claims because Bounchanh failed to file his action within the
applicable statutes of limitations. See 29 U.S.C. § 2617(c) (setting forth limitations
periods for FMLA claims); 42 U.S.C. § 2000e-5(f)(l) (setting forth 90-day period
in which Title VII complainant may bring a civil action).
The district court properly dismissed Bounchanh’s Title VII claims against
Washington State Department of Social and Health Services because Bounchanh
failed to allege facts sufficient to state a plausible claim. See Freitag v. Ayers, 468
F.3d 528, 541 (9th Cir. 2006) (elements of a Title VII retaliation claim); Costa v.
Desert Palace, Inc., 299 F.3d 838, 847 (9th Cir. 2002) (en banc) (“Title VII
prohibits discrimination ‘because of a protected characteristic[.]”).
The district court properly dismissed Bounchanh’s remaining claims against
the state and federal agencies as barred by sovereign immunity, and against the
individual defendants because there is no individual liability. See Bd. of Trs. of
Univ. ofAla. v. Garrett, 531 U.S. 356, 360 (2001) (Eleventh Amendment bars suits
against states for money damages under Title I of the Americans with Disabilities
Act (“ADA”)); Kimel v. Fla. Bd. ofRegents, 528 U.S. 62, 91-92 (2000) (Age
Discrimination in Employment Act (“ADEA”) does not abrogate states’ Eleventh
Amendment immunity); Fitzpatrick v. Bitzer, 427 U.S. 445, 452 (1976) (Title VII
abrogates Eleventh Amendment immunity when the state is sued “as employer”);
Ward v. EEOC, 719 F.2d 311, 313-14 (9th Cir. 1983) (no express or implied cause

-3S\Ps
2

19-36059

of action against the Equal Employment Opportunity Commission (“EEOC”) by
employees of third parties); see also Walsh v. Nev. Dep ’t of Human Res., 471 F.3d
1033, 1037-38 (9th Cir. 2006) (individual defendants may not be held personally
liable under Title I of the ADA); Miller v. Maxwell’s Int’llnc., 991 F.2d 583, 58788 (9th Cir. 1993) (individual defendants cannot be held liable for damages under
Title VII or ADEA).
The district court properly dismissed Bounchanh’s claims against AFSCME
Council 28 because Bounchanh failed to allege facts sufficient to state a plausible
claim. See Fleming v. Yuma Reg’l Med. Ctr., 587 F.3d 938, 942 (9th Cir. 2009)
(Title I of ADA covers the employer-employee relationship but does not cover
other relationships); Adcock v. Chrysler Corp., 166 F.3d 1290, 1292 (9th Cir.
1999) (Title VII protection requires an employment relationship); Barnhart v. N.Y.
Life Ins. Co., 141 F.3d 1310, 1312-13 (9th Cir. 1998) (entitlement to protection
under the ADEA requires an employee relationship); see also Diaz v. Int’l
Longshore & Warehouse Union, Local 13,474 F.3d 1202, 1205 (9th Cir. 2007)
(“[T]he duty of fair representation does not extend to persons who are not
employees in the bargaining unit.” (citation and internal quotation marks omitted)).
The district court did not abuse its discretion by denying Bounchanh’s
motion for recusal of the district judge because Bounchanh failed to establish any
ground for recusal. See United States v. McTiernan, 695 F.3d 882, 891-92 (9th

19-36059

Cir. 2012) (setting forth standard of review and circumstances requiring recusal).
The district court did not abuse its discretion by denying Bounchanh’s
motion for appointment of counsel because Bounchanh failed to demonstrate
exceptional circumstances. See Palmer v. Valdez, 560 F.3d 965, 970 (9th Cir.
2009) (setting forth standard of review and “exceptional circumstances”
requirement).
We reject as without merit Bounchanh’s contentions that the district court
engaged in misconduct, committed due process violations, and erred by failing to
schedule a jury trial.
We do not consider matters not specifically and distinctly raised and argued
in the opening brief, or arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
The motion for summary affirmance filed by the EEOC, Haley, and Sienko
(Docket Entry No. 30) is granted.
Bounchanh’s motions for an extension of time to file a reply brief and for
leave to file multiple reply briefs (Docket Entry Nos. 48 and 52) are granted. The
Clerk will file the reply briefs received at Docket Entry Nos. 51 and 53.
All other pending motions and requests are denied.
AFFIRMED.

4

19-36059

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
NOV 3 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

KANNHA BOUNCHANH,
Plaintiff-Appellant,
v.

WASHINGTON STATE HEALTH CARE
AUTHORITY, AKA HCA; et al.,

No. 19-36059
D.C. No. 3:19-cv-05171 -RBL
Western District of Washington,
Tacoma
ORDER

Defendants-Appellees.
Before:

SCHROEDER, HAWKINS, and LEE, Circuit Judges.

Bounchanh’s motion for reconsideration (Docket Entry Nos. 58 and 59) is
denied. See 9th Cir. R. 27-10.
All other pending motions are denied.
No further filings will be entertained in this closed case.

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
NOV 12 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

KANNHA BOUNCHANH,
Plaintiff - Appellant,
v.
WASHINGTON STATE HEALTH
CARE AUTHORITY, AKA HCA; et
al.,

No. 19-36059
D.C.No. 3:19-cv-05171 -RBL
U.S. District Court for Western
Washington, Tacoma
MANDATE

xt>:
llzqoccS'

Defendants - Appellees.

The judgment of this Court, entered August 07, 2020, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Rebecca Lopez
Deputy Clerk
Ninth Circuit Rule 27-7

.. •„ -

*vOl ”

c

r S ’_i *__

Hostetler, Rachel (HCA)W W
From:
Sent:
To:
Cc
Subject:

; C:A 1 ■ F:le: 0i/^;>3”

) iv
'
w.>- lVwV<llwlU

33'OrioZ

Ifr*

Oxford, Dylan (HCA)
Tuesday, March 3,2015 9:15 AM
Bui, Jean (HCA)
Bounchanh, Kannha S. (HCA)
FW: Leave

Ap> t^h
sJfessfser,1^ ***

'(

^m*X-JLUo> pr^s^yvJ

Below is Kannha s plan for utilizing his annual leave prior to his anniversary rate. I didn't think it was quite appropriate
for me to approve his next four months of leave without your approval ©

ippdt A-£_ dUJl. /?c»“
yn aKst-Ul5
fk^/riiiJjL /tk- u&tr

-D
From: Bounchanh, Kannha S. (HCA)
Sent: Tuesday, March 03,2015 7:13 AM
To: Oxford, Dylan (HCA)
Ca Bounchanh, Kannha S. (HCA)
Subject: RE: Leave

6mA- de/p<y yny p*yl>

QsiaJ 1+ maJU. ImfesrSitAz

Good morning Dylan,

crHrW
f.........................
W\A

I talked to Gary about taking my time off to reducing my annual leaves yesterday. I understand that lie is takingtime off
this month like the third week of March. Between now and prior to August 9th (my anniversary date), I would like to
take the following days off so that I can bring down my annual leave outstanding balances.
(
Below are the days that I would like to take time off from work:
Friday, March 6th
Friday, April 10th
Friday, April IT8*
Friday, April 24th
Friday, May 8th
Friday, May 15th
Friday, May 22nd and Tuesday, May 26th
Friday, June 12th
Friday, June 19th
Friday, June 26th
Thursday, July 2nd and Monday, July 6th
Friday, July 17th
Friday, July 24tfl
Please let me know if the above plan sounds good to you so that I can submit my leave slips to you for your approval.
Thank you very.much, and I wish you a nice day.
Take care,
(

Kannha Bounchanh
1

r

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT
JUN 01 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

KANNHA BOUNCHANH,

No. 19-36059

Plaintiff - Appellant,

D.C. No. 3:19-cv-05171 -RBL
U.S. District Court for Western
Washington, Tacoma

v.
WASHINGTON STATE HEALTH
CARE AUTHORITY, AKA HCA; et
al.,

ORDER

Defendants - Appellees.

The answering brief and the supplemental excerpts of record submitted on
May 29, 2020 by Sharon Ortiz; et al., are filed.
No paper copies are required at this time.

IaTUA

CoUrCt
tu^JL

-(5/ iryic

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
. Lee

/ic

J
^(y/ YK£ J

vr Mr.

?

/

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT
JUN 05 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

KANNHA BOUNCHANH,

No. 19-36059

Plaintiff - Appellant,
v.

WASHINGTON STATE HEALTH
CARE AUTHORITY, AKA HCA; et
al.,

D.C. No. 3:19-cv-05171 -RBL
U.S. District Court for Western
Washington, Tacoma
ORDER

Defendants - Appellees.

The answering brief and the supplemental excerpts of record submitted on
June 5, 2020 by Pamela Anderson; et al., are filed.
No paper copies are required at this time.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT

vUls,

4- aW

By: Stephanie M. Lee
Deputy Clerk
Ninth Circuit Rule 27-7
gy-

J

/U*v BcU^ejr L>

Office of the Clerk
United States Court of Appeals for the Ninth Circuit
Post Office Box 193939
San Francisco, California 94119-3939
415-355-8000
Molly C. Dwyer
Clerk of Court

July 14, 2020

To:

Kannha Bounchanh

From:

Molly C. Dwyer, Clerk of Court
By: Stephanie M. Lee, Deputy Clerk

Re:

Receipt of a Deficient Brief of Appellant on 07/08/2020
Kannha Bounchanh v. WA State Health
Care Authority, et al

USCANo. 19-36059

The referenced brief cannot be filed for the following reason(s):
Multiple briefs submitted: Appellant may file only one principal brief and
one reply brief. See 9th Cir. R. 28-5. Within 14 days from the date of this
notice, please eitherfile a motion requesting permission to file multiple
bnefs or submit a single substitute brief accompanied by a separate motion
to pie a substitute brief If you do not file a timely motion within 14 days of
this notice, the multiple briefs will be stricken from the docket.
The following action has been taken with respect to the brief received by the
.

The deficiency by appellant is judged to be serious. We cannotfile your
nef
S
UJLS"}-

o

o^rojsv

V

'Yvxh
J

)

7

/

h eJ

i Yti C<syi 5 {
4'

Tl*

(Z'd

ot

iyyj

Case: 19-36059, 06/05/2020, ID: 11712486, DktEntry: 44-2, Page 4 of 174

Case 3:19-cv-05171-RBL Document 153 Filed 03/02/20 Page 1 of 1

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

JUDGMENT IN A CIVIL CASE

KANNHA BOUNCHANH,
Plaintiff,

CASE NUMBER: C19-5171RBL
v.

WA STATE HEALTH CARE
AUTHORITY, et al.,
Defendants.

□XX

Jury Verdict. This action came before the Court for a trial by jury. The issues have been
tried and the jury has rendered its verdict.
Decision by Court. This action came to consideration before the Court. The issues have
been considered and a decision has been rendered.

THE COURT HAS ORDERED THAT
All of Plaintiffs claims against all defendants are DISMISSED with prejudice and
without leave to amend. Judgment is entered in favor of Defendants on all of Plaintiff
Bounchanh’s claims.
DATED: March 2, 2020
William M. McCool
C

13Deputy Clerk

4/4
SER 23

Additional material
from this filing is
available in the
Clerk's Office.

